        OFFICE OF INSPECTOR GENERAL


                                 Catalyst for Improving the Environment



Audit Report



           Response Action Contracts:
           Structure and Administration
           Need Improvement

           Report No. 2005-P-00001


           December 6, 2004
Report Contributors:	             Stephen Burbank
                                  Heather Layne
                                  Denton Stafford
                                  Charles Watts
                                  Myra Mackall
                                  Michael Petscavage




Abbreviations

CPAF         Cost Plus Award Fee
EPA          Environmental Protection Agency
FAR          Federal Acquisition Regulation
ID/IQ        Indefinite Delivery/Indefinite Quantity
LoE          Level-of-Effort
NIH CPS      National Institutes of Health Contractor Performance System
OAM          Office of Acquisition Management
OARM         Office of Administration and Resources Management
OIG          Office of Inspector General
OSRTI        Office of Superfund Remediation and Technology Innovation
OSWER        Office of Solid Waste and Emergency Response
PBSA         Performance-Based Service Acquisition
RAC          Response Action Contract
RACMIS       Remedial Action Contract Management Information System
USACE        U.S. Army Corps of Engineers
                         U.S. Environmental Protection Agency                                                 2005-P-00001
                                                                                                           December 6, 2004
                         Office of Inspector General


                         At a Glance
                                                                              Catalyst for Improving the Environment



Why We Did This Audit                   Response Action Contracts: Structure and Administration Need Improvement

We conducted this audit to               What We Found
determine how effectively and
efficiently EPA is administering        EPA can improve the structure of RACs to better protect the Government's
Response Action Contracts               interests. Current RACs, which are Cost Plus Award Fee Level of Effort
(RACs). We looked at the                contracts, assign to EPA a disproportionate share of the risk of cost overruns;
following areas:                        expose EPA to the risk of loss of funds through litigation; limit competition; and
• Acquisition Planning: How are         forego potential cost savings associated with other approaches to contracting, such
  RACs structured and funded?           as Performance-Based Service Acquisition.
• Source Selection: How does
  EPA decide with whom to               EPA regions do not consistently document the rationale used to decide what
  contract? Is past performance         procurement option to utilize for Superfund cleanup activities as required by
  considered?                           established policy. Further, EPA does not have a process to measure and
• Contract Administration: Are          disseminate information on the U.S. Army Corps of Engineers’ past performance
  there good measures for assessing     in support of EPA.
  contractor performance?
• Contract Information Systems:         The Agency has measures in place to assess contractor performance at the work
  Do contract managers have the         assignment level. However, evaluations at the contract level were not being
  information needed to evaluate        documented timely and consistently, as required, because they were not given the
  results and make decisions?           necessary priority. Not consistently documenting evaluations in a timely manner
                                        does not permit EPA and other Federal agencies to consider contractors’ past
Background                              performance and could be detrimental to contractors who have performed well.

RACs are used to obtain                 Contract managers have, or can obtain, the information needed to evaluate results
professional Architect-Engineer,        and make decisions, but the information in the national automated database is not
technical, and management services      always readily available. The Remedial Action Contract Management
in support of EPA’s Superfund           Information System is underutilized by regional staff, and the system does not
cleanup responsibilities. Current       collect national data as originally intended. As a result, EPA is expending
RACs, which expire between 2005         approximately $1.5 million a year on a system that is not being fully utilized.
through 2009, have a maximum
potential value of more than
$4 billion.
For further information, contact our
Office of Congressional and Public       What We Recommend
Liaison at (202) 566-2391.
                                        We recommend that the Office of Solid Waste and Emergency Response, in
To view the full report, click on the   coordination with the Office of Administration and Resources Management,
following link:                         develop and implement a plan with milestones that will increase the use of
                                        different contract types, require regional staff to document the rationale for all
www.epa.gov/oig/reports/2005/20041      source selection decisions, develop a method for holding Contracting Officers
206-2005-P-00001.pdf
                                        accountable for conducting past performance evaluations timely and accurately,
                                        and conduct a cost benefit analysis to determine whether the Remedial Action
                                        Contract Management Information System should be retained.
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                      OFFICE OF
                                                                                 INSPECTOR GENERAL




                                       December 6, 2004
MEMORANDUM

SUBJECT:	     Response Action Contracts: Structure and Administration
              Need Improvement
              Report No. 2005-P-00001

FROM:	        Robert Mitchell, Director for Contract Audits \Signed\

              Office of Inspector General (242IT)


TO:	          Thomas P. Dunne, Acting Assistant Administrator

              Office of Solid Waste and Emergency Response (5101T)


              David J. O’Connor, Acting Assistant Administrator
              Office of Administration and Resources Management (3101A)

This is our final report on the subject audit conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
problems the OIG has identified and corrective actions the OIG recommends. This audit report
represents the opinion of the OIG and the findings contained in this report do not necessarily
represent the final EPA position. Final determinations on matters in this audit report will be
made by EPA managers in accordance with established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, the Acting Assistant Administrator for the Office of Solid
Waste and Emergency Response, as the designated Action Official, is required to provide a
written response to the report within 90 calendar days of the report date. The Action Official
should include a corrective action plan for agreed upon actions, including milestones dates.

If you or your staff have any questions, please contact me at Mitchell.Robert@epa.gov, or
Stephen Burbank, Assignment Manager, at Burbank.Stephen@epa.gov.

                            Tables of Contents

At a Glance


Chapters
     1        Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1


     2        Response Action Contracts Need to be Restructured . . . . . . . . . . . . 6


     3        Procurement Decisions Not Adequately Documented . . . . . . . . . . 14


     4        Past Performance Evaluations Not Documented Timely 

              and Consistently . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


     5        Utilization of Remedial Action Contract Management 

              Information System Could be Improved . . . . . . . . . . . . . . . . . . . . . . 21



Appendices
     A        Schedule of Response Action Contracts Reviewed . . . . . . . . . . . . 23


     B        Agency Response                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


     C        Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

                                Chapter 1
                                 Introduction
Purpose

          We conducted this audit to determine how efficiently and effectively the
          Environmental Protection Agency (EPA) is administering Response Action
          Contracts (RACs). RACs are used to obtain professional Architect-Engineer,
          technical, and management services in support of EPA’s Superfund cleanup
          responsibilities. The current RACs, which expire between 2005 through 2009,
          have a maximum potential value of more than $4 billion (see Appendix A.). The
          Agency is planning to replace these contracts with a new set of contracts (RAC II)
          as they expire, which will have an estimated maximum potential value of $4
          billion as well.

          Our objectives were to answer the following questions:

          •	 Acquisition Planning: How are RACs structured and funded?
          •	 Source Selection: How does EPA decide with whom to contract (other
             government agencies, private sector)? Does past performance inform the
             source selection decision?
          •	 Contract Administration: Are there good measures for assessing contractor
             performance?
          •	 Contract Information Systems: Do contract managers have the information
             needed to evaluate results and make decisions?

Background

          Congress enacted the Comprehensive Environmental Response, Compensation,
          and Liability Act of 1980, commonly referred to as “Superfund,” to address
          threats to human health or the environment resulting from releases or potential
          releases of hazardous substances.

          EPA has primary responsibility for managing cleanup and enforcement activities
          under Superfund. In the cleanup of Superfund sites, EPA uses a variety of
          instruments (such as contracts, assistance agreements, and interagency
          agreements) to obtain Superfund removal and remedial services. EPA assigns
          work to RAC contractors, States, the U.S. Army Corps of Engineers (USACE), or
          the U.S. Bureau of Reclamation based upon factors such as:

          •	   Site Characteristics
          •	   Remedy Characteristics
          •	   Local/Public Interest
          •	   Experience/Regional Infrastructure
          •	   Capability/Capacity of Contractors
         •   Conflict of Interest
         •   Unique Site Needs

         RACs provide professional Architect-Engineer, technical, and management
         services in support of EPA's remedial response, enforcement oversight, and non-
         time critical removal activities at Superfund sites. Contract services performed
         under RACs include site management, remedial investigation and feasibility
         studies that define the nature and extent of contamination, engineering services to
         design remedial actions, subcontracting for remedial actions, construction
         management, and enforcement support. Services may also include technical and
         management services supporting EPA's coordination and oversight of remedial
         activities performed by a State, the USACE, the U.S. Bureau of Reclamation, or
         responsible parties identified in enforcement actions. Through this “one­
         program” approach, where most services needed can be ordered under one
         contract, EPA expected to reduce disputes between design and construction
         contractors, promote program integration, and give the regions flexibility to
         pursue various enforcement options.

         EPA Headquarters offices and the regions are responsible for administering
         RACs. In the Office of Solid Waste and Emergency Response (OSWER), the
         Office of Superfund Remediation and Technology Innovation (OSRTI) is
         responsible for overall management of the Superfund program. Within OSRTI,
         the Contracts Management Branch provides leadership for Headquarters
         Superfund contracts. OSRTI also provides planning, oversight, and support for all
         regionally-administered and regional-support contracts, including RACs.

         The Office of Acquisition Management (OAM), within the Office of
         Administration and Resources Management (OARM), is responsible for the
         policies, procedures, operations, and support of the Agency's procurement and
         contracts management programs, from contract planning through closeout.

         Within each region, Remedial Program Managers, Contracting Officers, and
         Project Officers administer RACs.

Scope and Methodology

         We performed this audit from April 2003 to July 2004 in accordance with
         Government Auditing Standards, issued by the Comptroller General of the United
         States. Our audit included site visits to EPA Headquarters and four regions, as
         well as attending the 2003 National Superfund Project Officer/Contracting Officer
         Training Conference. We reviewed all 16 active RACs and data from EPA
         Headquarters and Regions 1, 2, 5, 6, 7, 9, and 10.




                                          2
The regions were selected based upon the following criteria:

•   Contract capacity (maximum potential value).
•   Number of sites on the National Priority List within each region.
•   Amount of unallocated obligations on contracts (bulk funding).
•   Use of Interagency Agreements (number and dollar amounts of agreements).

To determine how RACs are structured and funded, we interviewed staff in
Headquarters and the regions to gain an understanding of the planning, budgeting,
and funding process for RACs. We reviewed the Federal Acquisition Regulation
(FAR) Part 7, Acquisition Planning; the Contracts Management Manual; the
RACs Users Guide; the RACs Statement of Work; the EPA Acquisition
Regulation; and other pertinent documentation. We also interviewed staff at the
USACE. We did not perform work at the U.S. Bureau of Reclamation because
they receive a small percentage of Superfund money compared to the USACE.

To determine how EPA decides with whom to contract and whether past
performance informs source selection decisions, we interviewed headquarters
staff, Remedial Project Managers, Project Officers, and Contracting Officers. We
reviewed guidance issued to the regions on determining to whom to assign
cleanup work. We also reviewed Interagency Agreements documents; Interagency
Agreement Decision Memorandums; and an EPA report, “Evaluation of the
Performance of the Corps of Engineers in Support of EPA’s Superfund Program,”
on the USACE’s support of Superfund. We also reviewed EPA’s implementation
plan to address the recommendations from the above report and reviewed, on a
test basis, the documentation for selected source decisions.

We interviewed OAM staff to identify the processes and systems the regions
should be using to assess contractor performance. We interviewed regional
contracting officers to determine the processes and systems actually being used.
We reviewed pertinent documentation such as the RACs Users Guide and Award
Fee Plans. We reviewed the FAR and EPA requirements pertaining to conducting
performance evaluations. We reviewed award fee and annual evaluations for
compliance with those requirements. We also tested the accuracy and timeliness
of performance evaluations that were recorded in the National Institutes of Health
Contractor Performance System (NIH CPS) by comparing them to the source
documents.

To determine whether contract managers have the information needed to evaluate
results and make decisions, we conducted interviews in the regions and
Headquarters to determine the information needed and the information systems
used to administer the RACs, and assessed whether these systems readily provide
needed information.




                                 3
Prior OIG Reports

          We reviewed the following Office of Inspector General (OIG) reports and
          determined that the recommendations in these reports, as they pertained to this
          audit, have been resolved:

          •	 Acquisition Management: OMB Requested Review of EPA Contracting,
             Report No. E1SKF7-04-0037-7100301, issued September 30, 1997.

          •	 Superfund: Superfund Interagency Agreements, Report No. 2001-P-00011,
             issued June 22, 2001.

Internal Control Structure

          In planning and performing the audit, we reviewed management controls relating
          to our objectives, and our concerns with the lack of controls or the effectiveness
          of existing controls are discussed in the following chapters. We also examined
          the Fiscal Year 2003 Federal Managers’ Financial Integrity Act Annual Assurance
          Letters issued to the then Acting EPA Administrator by the Principal Deputy
          Assistant Administrator for OSWER and the Assistant Administrator for OARM.
          Neither assurance letter recommended any material, Agency-level weaknesses nor
          management challenges in the administration of RACs.

Compliance With Laws and Regulations

          EPA complied with the laws and regulations (the FAR) pertaining to its efforts to
          administer and manage RACs with the exception of the requirement for timely
          input of past performance evaluations into the NIH CPS as discussed in Chapter 4.
          Needed process improvements are discussed in Chapters 2, 3, 4, and 5.

Results of Review

          EPA can improve the structure of the RACs to better protect the Government's
          interests. The current RACs, which are Cost Plus Award Fee Level of Effort
          contracts, assign to EPA a disproportionate share of the risk of cost overruns;
          expose EPA to the risk of loss of funds through litigation; limit competition; and
          forego potential cost savings associated with other contracting approaches, such as
          Performance-Based Service Acquisition. Also, EPA regions do not consistently
          document the rationale used to decide what procurement option to utilize for
          Superfund cleanup activities, as required by established policy. The Agency has
          measures in place to assess contractor performance at the work assignment level,
          but evaluations at the contract level were not being documented timely and
          consistently as required. Contract managers have, or can obtain, the information
          needed to evaluate results and make decisions, but it is not always readily

                                           4
available; the Remedial Action Contract Management Information System is
underutilized by regional staff, and the system does not collect national data as
originally intended.

We recommended that OSWER, in coordination with OARM, develop and
implement a plan for RAC II that increases use of Indefinite Delivery/Indefinite
Quantity, task order and site specific contracts. We also made recommendations
to review and revise the recertification policy, issue clarifying guidance on the
“Superfund Policy for Assigning Remedial Work to the US Army Corps of
Engineers (USACE),” provide training and hold Contracting Officers more
accountable for evaluating contractor performance, and complete the proposed
cost benefit analysis to determine whether the Remedial Action Contract
Management Information System should be retained.

We held an exit conference with the Agency on November 17, 2004. EPA
provided written comments to our draft report on October 29, 2004. Where
appropriate, we made revisions to our report or incorporated the Agency’s
comments and our evaluation of EPA’s comment. We have included EPA’s
complete response as Appendix B.




                                  5
                                Chapter 2
 Response Action Contracts Need to be Restructured

          EPA can improve the structure of RACs to better protect Government interests.
          The current RACs, which are Cost Plus Award Fee (CPAF) Level of Effort (LoE)
          contracts, assign to EPA a disproportionate share of the risk of cost overruns;
          expose EPA to the risk of loss of funds through litigation; limit competition; and
          forego potential cost savings associated with other approaches to contracting, such
          as Performance-Based Service Acquisition (PBSA). Some Agency officials
          maintain that the CPAF-LoE contracts offer the following advantages: their
          flexibility allows the Agency to devote resources to other sites when warranted;
          they are funded in a way that allows the Agency to continue work when
          appropriations are delayed; and they prevent managers from having to return
          funds to Headquarters for recertification. While there are benefits associated with
          the current contract type, there are better contracting approaches available that
          should, among other things, reduce EPA’s cost risk and risk of loss through
          litigation.

Options Available to Reduce EPA’s Risks

          EPA should utilize available historical data to move away from CPAF LoE
          contracts. The services obtained under the RACs have been performed for EPA
          for more than 20 years and EPA has extensive historical data to draw upon. In
          addition, the nature of cost reimbursement contracts requires EPA to monitor
          contractor performance closely and places more risk for cost and performance on
          the Government.

          According to FAR 16.103(a), selecting the contract type is generally a matter for
          negotiation. It requires Contracting Officers to exercise sound judgment and
          avoid protracted use of a cost-reimbursement or time-and-materials contract after
          experience provides a basis for firmer pricing. The objective is to negotiate a
          contract type and price (or estimated cost and fee) that will result in reasonable
          contractor risk and provide the contractor with the greatest incentive for efficient
          and economical performance.

          FAR 16.104(d) and (k) state that complex requirements, particularly those unique
          to the Government, usually result in greater risk assumption by the Government.
          As a requirement recurs or as quantity production begins, product descriptions or
          descriptions of services to be performed can be defined more clearly, the cost risk
          should shift to the contractor, and a fixed-price contract should be considered.



                                            6
There are various types of contracts available for use by EPA that offer
advantages over the present contract type. Regions 6, 7, and 10 have decided to
move away from CPAF work assignment contracts and to Indefinite Delivery/
Indefinite Quantity (ID/IQ) task order contracts for the next round of RACs. Task
order contracts offer the following benefits:

•	 Task orders can be ceiling price (best effort) or fixed price (completion).
•	 Funds are obligated by task order and cannot be used to fund another task
   order without deobligation first.
•	 Cost recovery is easily identified to a site because of site specific accounting
   and reporting.

An ID/IQ contract is a contract for services that does not procure or specify a firm
quantity of service and that provides for the issuance of orders for the
performance of tasks during the period of the contract. Benefits of ID/IQ
contracts include:

•	 Providing flexibility in both quantities and delivery scheduling.
•	 Limiting the Government's obligation to the minimum quantity specified in
   the contract.
•	 Offering the ability to place term or completion type orders, cost
   reimbursement, or fixed priced orders.
•	 Providing funding flexibility (funding in increments).
•	 Providing opportunity and potential for costs savings through better contractor
   cost performance and accountability.
•	 Enabling the obligation of funds under individual task orders.
•	 Providing better opportunity for PBSA.

Region 10 awarded new ID/IQ contracts (one small and one large business) in
July and December 2003, but Regions 6 and 7 have not awarded their contracts.
The contract specialist and the Project Officer for Region 10 both believe that the
new contract requires more initial planning but less overall contract
administration. For example, task orders must be planned and funded site
specifically, which requires better initial planning and cost estimating than
traditional work assignments. However, these new contracts do not have award
fees, so performance evaluation boards are not needed. Also, these contracts are
loaded fixed-rate (all overhead and program management expenses are built into
the hourly labor rate) and do not have separate program management accounts to
administer nor require routine indirect cost rate audits.

Region 10's new contract generally has the same statement of work as the current
RAC, as well as some of the same flexibilities in the type of task orders issued.
Task orders issued can be cost-reimbursable (term form or completion form) or
fixed price. However, the task order contract provides better funds control
because the task order obligates the funds.

                                  7
          The USACE procures remedial services similar to EPA, and faces many of the
          same uncertainties and funding hurdles. However, term form contracts are
          discouraged by USACE and are not used when procuring remedial services.
          Under their Pre-placed
          Remedial Action Contract, the
          USACE awards a task order,                     Per FAR 16.306(d)(2) and (3)
          detailing the services required
       Two  Forms  of Cost-reimbursable Contracts
          much like EPA. USACE
                Completion form contracts describe the scope
          purchases complete tasks rather      of work as a clearly defined task or job, with a
                                               specific end product required. If the contractor
          than labor hours. If site            does not complete the work within the estimated
          conditions change, USACE can         cost, the Government may require more effort
          issue a “Work Variance               without an increase in fee, provided the
                                               Government increases the estimated cost.
          Notice,” which will change the

          task order requirements within
      Term form describes the work in general terms
          the overall scope of work of the     and obligates the contractor to devote a
                                               specified level of effort for a stated period of
          task order. This demonstrates        time. At the completion of the performance
          that remedial cleanup work can       period, the contractor is paid cost and fee if
                                               performance is considered satisfactory.
          be accomplished with contracts       Additional work is considered a new acquisition.
          structured as other than CPAF

          LoE.


          We believe EPA is moving in the right direction with three regions changing
          contract type. The Agency should expedite a lessons learned analysis of the new
          ID/IQ contracts as soon as sufficient data is available. RACs are 10-year
          contracts, and EPA should confirm whether in fact the ID/IQ approach reduces
          risk and lessens contract administration effort. If the results of the review shows
          this to be the case, then the RAC II contracts in the seven remaining regions
          should not be CPAF-LoE. If this information is not available in time for award of
          the remaining contracts, and any of the contracts awarded are CPAF-LoE, then the
          results of the review should be factored into the decision whether to exercise the
          option periods.

Contract Structure and Size Limit Competition

          RACs are full-service Architect-Engineer contracts that can provide most
          Superfund site cleanup services. The contracts’ maximum value can exceed
          several hundred million dollars. EPA has historically been reluctant to reduce the
          overall scope of the RAC, which currently can provide most services required
          over the lifetime of a site. The wide array of services currently provided, along
          with the RACs’ long performance periods, may limit competition to only the
          largest firms capable of providing these services. This limits the participation of
          smaller firms, which may further limit competition.




                                             8
          EPA’s Contracts 2000 workgroup recommended in 1999 that the design and
          construction portions of the RACs be broken out into separate contracts.
          Advantages of separating design from construction are:

          •	 Increased opportunities for fixed price, completion form, and performance
             based contracting.
          •	 Increased competition in the contracting process.
          •	 Increased small, minority, and women-owned business participation in the
             Superfund contracting program.

          Disadvantages of separating design from construction are:

          •	 Limited EPA experience awarding and managing construction
             contracts.
          •	 Resources needed to develop construction management expertise.

          Instead of mandating the separation of design and construction contracts, the later
          Design Construction workgroup advocated, and EPA adopted, a menu approach
          whereby regions could choose to break out the design and construction portions,
          or continue to utilize full service RACs. Agency officials stated that regional
          resistance to change prompted the switch to the menu approach.

          While the menu approach seems to balance national consistency with regional
          flexibility, there is limited assurance that it will lead in all cases to increased
          competition, increased small, minority, and women-owned business participation,
          or use of performance based, multiple award, and fixed price contracts. There is
          no guarantee that the regions will select other types of contracts, and they may
          stay with the existing contract type, CPAF.

          OSRTI staff advised that in the remaining contract awards, the regions will be
          required to identify at least one contract for Small Business Set-Aside. They also
          advised that while one of the remaining seven regions is not changing contract
          type, the others are considering doing so.

EPA at Risk of Losing Funds Through Litigation

          Obligating funds on an LoE contract in excess of identified needs recently resulted
          in losing contract funds as a result of litigation, and this could happen again. In
          January 2002, the U.S. Court of Appeals for the Federal Circuit held EPA liable to
          pay a contractor all funds allotted to a contract. In this case, EPA ordered LoE far
          below levels called for by the contract, and the contractor was able to prove
          resulting damages. The contract, although not a RAC, contained clauses identical
          to those in the current LoE RACs.



                                           9
          As a result of the court ruling, EPA issued a document stating, in part, “OAM and
          Program Offices needed to guard against the practice of funds being allotted to a
          LoE contract for the purpose of preserving funds for other uses, rather than for use
          in reimbursing incurred contract costs. . . .”

          Regions order work by issuing work assignments. Work assignments are tasking
          documents but are not obligating documents, so RAC funds are obligated at the
          contract level, then work assignments are issued against those obligations. This
          practice, known as bulk funding, places funds on the contract before work is
          ordered, in some cases years in advance. Regional offices use bulk funding to
          preserve funds, and to provide the flexibility to move funds between sites. For
          example, if unanticipated delays occur, regional managers are able to redirect
          contractor services and shift those funds to higher priorities within the region.
          Regional officials stated that the amount of bulk-funded obligations on each
          contract generally corresponds to work ordered on work assignments. However,
          regional officials informed us there will be a small percentage of the total bulk
          funding that is not yet supported by approved work assignments, which represents
          planned new work, some program management, and award fee.

          The Agency needs to actively monitor RAC funding activity. As of February
          2004, there was approximately $23.4 million of bulk funding on RACs. The
          Regional Project Officers had plans to order approximately $14.8 million of work
          against these obligations. The remaining $8.6 million appears to be funding in
          excess of the regions’ identified needs and “at risk” in light of the court decision.

          EPA’s April 2004 report, SUPERFUND: Building on the Past, Looking to the
          Future, stated that some of the regions, at their present expenditure rate, had
          placed enough funding on their RACs to be able to utilize them for 1.2 years to
          4.6 years in the future without placing additional funds on the contracts. The
          report recommended that OARM and OSWER work closely with the regions to
          monitor contracts to ensure that the regions have not funded their contracts into
          the future to an extent where they cannot appropriately use the funds during the
          contract period.

Regional Desire and Funding Issues Drive the Need for Flexibility

          The RACs’ structure and funding method support the regions’ desire for
          flexibility to deal with unpredictable site conditions. However, EPA does not
          actively track the frequency and scope of these unknown conditions. Agency
          officials said these unpredictable conditions are an inherent part of their business,
          and the RAC’s flexibility allows contract managers to easily adjust. They stated
          they need this flexibility because of the way EPA funds its work and because of
          its deobligation and re-certification procedures, which direct that 75 percent of
          deobligations be returned to Headquarters.


                                           10
          Regional officials stated that for the past several years, they have received their
          appropriation late in the fiscal year, as late as the second or third quarter. In these
          situations, regional officials believe it would be difficult to manage and start new
          task orders. With task orders, work has to be identified and costs negotiated
          before task orders are awarded and funds obligated. They stated regional offices,
          therefore, would have difficulty issuing new task orders and obligating funds
          before the end of the fiscal year. By contrast, under current procedures the RACs
          are bulk funded. Work assignments are subsequently issued and amounts
          negotiated. If site conditions change and cause an unexpected work stoppage,
          funds can easily be shifted to other work. Moreover, under the current
          deobligation and recertification procedures, managers using task orders would
          have to return 75 percent of the deobligated funds to Headquarters, rather than just
          shifting the funds to a different work assignment.

          We do not believe that the desire to avoid EPA’s funds recertification process
          should be allowed to drive the contract structure. Contract type should be
          determined based on Agency needs and the risks involved. As discussed above,
          EPA has been managing site cleanups for more than 20 years, and this experience
          should allow for the use of contract types that shift risk from the Government to
          the contractors.

EPA Acknowledges that Benefits Can be Achieved Through Different
Contract Type and Structure

          The EPA April 2004 Superfund report previously mentioned concluded that
          “while pursuing alternative types of contracts (i.e., performance-based, site-
          specific, and task order contracts) will require a greater investment in Agency and
          Superfund program time and personnel, done properly, these different contract
          types can result in significant cost savings to the program.” The report
          recommended that OARM, OSWER, and the regions work together to encourage
          the use of alternative contract types, and that OARM and regional contracting
          officers should offer regular training for contract personnel, regional project
          managers, on-scene-coordinators, and project officers in alternative contract
          mechanisms. Procuring remedial actions on a site-specific basis offers certain
          benefits. It provides more opportunity for fixed price work, eliminates some
          potential conflicts of interest, provides more competition for remedial action
          work, provides more opportunity for small businesses, and provides more
          opportunities for PBSA. EPA could reap many of these benefits by increasing its
          use of site-specific contracts. With the expiration of the current RACs, the
          Agency has the opportunity to reduce costs and increase the availability of funds
          for the remedial program by moving away from CPAF contracts to ID/IQ task
          order contracts, separating design from construction and utilizing more site
          specific contracts in the new round of RACs.



                                            11
Recommendations

         We recommend that the Acting Assistant Administrator for OSWER, in
         coordination with the Acting Assistant Administrator for OARM:

         2-1    Develop and implement a plan with milestones for RAC II which:

                   a) increases use of ID/IQ, task order, and site specific contracts, and
                   b) increases the use of separate contracting for design, construction, and
                      other remedial services.

         2-2    Conduct a lessons learned analysis of the new ID/IQ contracts as soon as
                sufficient data is available and develop a plan to share and utilize the
                results of the analysis.

         2-3    Stop funding RACs in excess of identified needs.

         2-4    Review and revise the recertification policy so as to remove it as an
                impediment to utilization of better contract types. The policy should
                reflect a balance between the need to return funds to Headquarters for re­
                distribution to where the most pressing needs are identified, and the degree
                of flexibility Headquarters is willing to grant to the regions to move funds
                between sites as they now do with work assignments.

Agency Comments and OIG Evaluation

         EPA generally agreed with most of the recommendations.

         In response to recommendation 2-1, the Agency stated it developed plans to
         increase the use of ID/IQ contracts and that its current strategy (Contracts 2000 -
         Design/Construction Contracts Decision memorandum dated September 15, 2000)
         already allows for separate contracts for design, construction, and other remedial
         services; and that Regions 7 and 10 are piloting this concept. In addition to
         Region 10 mentioned in the report, Regions 6 and 7 will award ID/IQ contracts
         and other regions are considering using this contract type.

         We do not believe that EPA’s current strategy of providing a menu approach is
         the same as developing a plan with milestones that would increase the use of
         different contract types and structures, such as ID/IQ contracts. When providing a
         response to the final report, EPA should provide a plan to increase the use of
         ID/IQ contracts.

         EPA agreed with recommendation 2-2 to conduct a lessons learned analysis of the
         new ID/IQ contracts and stated they would share the results. We believe EPA
         should go beyond just sharing the results of the analysis. If results of the lessons

                                          12
learned demonstrate that ID/IQ contracts are more beneficial, EPA should develop
guidance that lays out the circumstances when certain types of contracts, such as
ID/IQ, should be used. Any deviation from the preferred contract type should be
justified.

EPA did not agree that RACs are funded in excess of identified needs, but agreed
to examine the extent to which regions are "forward" funding project needs. We
conducted a detailed contract-by-contract analysis of the RAC funding and
determined that regions had funds allocated to contracts in excess of identified
needs and planned work.

EPA agreed that there needs to be a revision or clarification of the recertification
policy, especially as it applies to RACs that use task orders or other contract types.
At the exit conference, EPA staff stated that regions will be exempt from having
to return 75 percent of the deobligated funds to Headquarters if funds deobligated
from a task order are obligated to a task order under the same RAC concurrently.




                                 13
                               Chapter 3
 Procurement Decisions Not Adequately Documented
         EPA regions do not consistently document the rationale used to decide what
         procurement option to utilize for Superfund cleanup activities, as required by
         established policy. Further, EPA does not have a process to measure and
         disseminate information on USACE past performance in support of EPA. As a
         result, the Agency has limited assurance that sound procurement decisions are
         being made.

OSWER Requirements Were Not Followed

         OSWER’s May 19, 2003, policy, “Superfund Policy for Assigning Remedial
         Work to the US Army Corps of Engineers (USACE),” set forth factors to consider
         when selecting the appropriate procurement
         options (see box). Specifically it states, “As with
         all procurements, analysis should be conducted to
         select the appropriate contracting vehicles . . . All      May 2003 Policy
                                                                    Source Selection
         analyses should be documented in the site or                   Factors
         contract file. The documentation should outline
                                                               • Site Characteristics
         the reason behind the selection, especially any       • Remedy Characteristics
         factors that were used to make the decision.”         • Local/Public Interest
                                                                 • Experience/Regional
                                                                   Infrastructure
         In six regions, the 2003 policy was not being           • Capability/Capacity
         followed and inconsistent evaluation methods              of Contractors
                                                                 • Conflict of Interest
         were being used.                                        • Unique Site Needs

         Four regions (2, 5, 6, and 9) had no documentation
         of factors considered to support decisions made to
         assign (or not assign) work to the USACE. The other two regions (1 and 7)
         documented some of the factors used to make their decision, but did not fully
         comply with the May 2003 policy.

         Region 1 utilizes a “Decision Matrix.” The factors listed in the Region 1 Decision
         Matrix are similar to those required by the May 2003 policy. However, the
         decision matrix does not consider Remedy Characteristics and
         Experience/Regional Infrastructure.

         Region 7 utilizes an “option paper,” which evaluates the different alternatives
         available for cleanup activity. The option paper does not address some of the
         factors listed in the May 2003 policy, such as conflict of interest, remedy
         characteristics, and unique site needs. Regions 2, 5, 6, and 9 advised they used
         informal discussions among the Project Officers, Remedial Project Managers, and

                                         14
          Branch Chiefs when deciding with whom to contract. These informal discussions
          are not documented.

          Headquarters staff stated that the regions should be documenting their decisions in
          all cases. However, some regional staff stated they were unsure whether they had
          to document their decision in all cases or only when they use the USACE. By not
          documenting the reasons behind the selection of a procurement option, the
          Agency has limited assurances that sound decisions are being made in accordance
          with applicable policy.

USACE Past Performance is Not a Factor in EPA’s Source Selection
Considerations

          EPA does not have a formal process to measure and disseminate information on
          USACE past performance in support of EPA cleanup activities. As of February
          2003, the EPA Superfund program had approximately $453 million in Interagency
          Agreements with the USACE to support Superfund cleanup activities. The May
          2003 policy lists numerous source selection considerations; however, past
          performance of the USACE is not a factor. As a result, there is an increased risk
          that a USACE district office with performance problems in one EPA region could
          be awarded additional work in other regions.

          Regional staff oversee USACE activities through progress reports, meetings, and
          e-mails. However, no process currently exists for regional staff to systematically
          assess USACE performance and share it with EPA staff nationwide. EPA is
          starting to address these issues. EPA’s August 2003 report, “Evaluation of the
          Performance of the Corps of Engineers in Support of EPA’s Superfund Program,”
          reported on how well the USACE was supporting Superfund programs in EPA
          regional offices. Some of the recommendations were that:

          •	 New Interagency Agreements include criteria against which USACE
             performance will be measured and evaluated.
          •	 USACE and EPA Headquarters implement annual oversight of their
             respective field programs.
          •	 EPA and regional offices institute formal annual oversight programs of
             USACE District offices managing or overseeing Superfund projects and
             suggested criteria on which the USACE should be evaluated.

          OSWER developed an action plan to implement these recommendations and to
          conduct regional evaluations. However, milestone dates have not been
          implemented for all action items. The Agency has developed a plan to conduct
          regional evaluations of the USACE. After regional evaluations are completed, the
          Regional Liaison is required to summarize the results of the evaluations and
          forward them to Headquarters. However, the plan is unclear as to how regions
          would have access to other regions’ evaluations. The Agency should develop a

                                          15
         system or database in order to share the evaluations nationwide. The full
         implementation of the action plan should allow EPA to better monitor the costs,
         the quality of the work, and the timeliness of performance provided by the
         USACE.

Recommendations

         We recommend that the Acting Assistant Administrator for OSWER:

         3-1	   Issue clarifying guidance on “Superfund Policy for Assigning Remedial
                Work to the US Army Corps of Engineers (USACE)” requiring that:

                  a) past performance of USACE be considered in source selection, and
                  b) the rationale for all source selection decisions be documented.

         3-2	   Develop and implement a plan to evaluate USACE performance and share
                this information nationwide.

Agency Comments and OIG Evaluation

         EPA stated that as part of the source selection considerations the regions
         determine the best source from which to procure and manage construction
         services. However, Regional Reviews will look into how the performance of
         USACE was considered and documented, as well as ways of sharing performance
         issues at national meetings, such as the Senior Superfund Regional Managers
         Acquisition Council. We concur with EPA actions of developing feedback on
         USACE. However, EPA has not demonstrated how it intends to utilize this
         information beyond sharing the results at meetings. We are therefore
         recommending that EPA develop a system to disseminate this information
         nationwide to aid in the source selection decisions.

         EPA agreed with the recommendation that more documentation be required, and
         stated that the factors to be considered, as outlined in current policy, are
         guidelines rather than requirements. EPA further stated it will be reviewing how
         each region documents its decision as part of the planned Superfund Contracts
         Regional Review program. EPA plans to share performance issues on a national
         basis at national meetings, such as the Senior Superfund Regional Managers
         Acquisition Council. We agree with EPA actions to conduct regional reviews.
         EPA should not only share results of these reviews, but issue/reissue any guidance
         deemed necessary as a result.

         EPA agreed that sharing information about contracts procured by USACE and the
         process used will be a valuable management tool, but did not agree it needed a
         formal process to evaluate USACE’s past performance. EPA stated it is testing a
         feedback report intended to be completed by both EPA and USACE project

                                         16
managers that will provide progress, quality, and status of ongoing work. This
feedback, in addition to routine project communications, will highlight for
managers potential problems that need to be resolved. EPA also stated they are
developing a completion report to provide information to EPA and USACE
personnel on the overall satisfaction of USACE’s management of the project and
the USACE contractor’s performance, and this information will be available to all
regions. We are not advocating the development of any additional plans beyond
what EPA has started to develop. What we are recommending is that EPA make
evaluation information more readily available to EPA staff nationwide. EPA
stated that both the feedback and completion reports will be available to all
regions. However, EPA did not provide us with its means of doing this. The
Senior Superfund Regional Managers Acquisition Council meeting, which is held
twice a year, is a good avenue to discuss the results of evaluations, but providing
regions with access to these evaluations as needed would be more beneficial.




                                17
                                Chapter 4
   Past Performance Evaluations Not Documented
              Timely and Consistently

          The Agency has measures in place to assess contractor performance at the work
          assignment level, but evaluations at the contract level were not being documented
          timely and consistently as required because they were not given the necessary
          priority. There is no EPA individual held accountable for assuring past
          performance evaluations are documented in the National Institutes of Health
          Contractor Performance System (NIH CPS). Annual evaluations allow
          Contracting Officers to recognize contractors performing well, and to correct
          problems before they jeopardize contract completion. Contractors can gain or
          lose contracts based on past performance information, which in turn can mean
          millions of dollars in revenue. Therefore, not consistently documenting
          evaluations in a timely manner does not permit EPA and other Federal agencies to
          consider contractors’ past performance and it could be detrimental to contractors
          who have preformed well.

Past Performance Evaluations at Contract Level Are Not Documented
Timely and Consistently in NIH CPS

          Environmental Protection Agency Acquisition Regulations 1509.170 and
          1552.209-76 provide time-frames for completing contractor evaluations and
          require the Contracting Officer to complete the process within 90 business days
          after the end of each 12 months of contract performance period in the NIH CPS.

          The NIH CPS collects and maintains contractor performance evaluations. It
          allows instant access to multiple agency evaluations in Federal departments and
          independent agencies.

          As of May 7, 2004, 34 interim evaluations for the RACs should have been in the
          NIH CPS. However, only 26 evaluations were in the system.

          •	 Nineteen of the 26 evaluations were finalized, and available to the contracting
             community. However, many of the evaluations took a long time to be
             finalized. Eleven of the 19 (58 percent) completed evaluations took from
             152 to 351 days.

          •	 Seven of the 26 evaluations were started and “in progress,” and had been in
             process from 128 to 858 days from the end of the evaluation period.



                                          18
There is inconsistent evaluation information in NIH CPS. For the 26 evaluations
in the NIH CPS:

•	 Four had evaluation periods exceeding a year, ranging from 4 years to more
   than 8 years. Beginning periods for these evaluations were the contract award
   dates, 1995, 1996 (2), and 1998.

•	 One evaluation was for a 6-month period of performance instead of the
   required 12 months.

•	 Three evaluations for one contract were for the same performance period.

•	 Two evaluations were listed as final, even though the contracts do not end
   until 2006.

There is no EPA individual responsible for assuring past performance evaluations
are documented timely and consistently in the NIH CPS. Each region is
responsible for regional contractor evaluation information. Additionally, there are
various measurement points during the evaluation process, but no one is
monitoring these measuring points to ensure timely completion.
The May 2000 Office of Federal Procurement Policy, “Best Practices for
Collecting and Using Current and Past Performance Information,” states that
contractors and industry associations emphasized the power of past performance
as a tool for motivating contractors to make their best efforts, and raised concerns
that many assessments are not being done, or are being done inconsistently.

Interim evaluations allow Contracting Officers to recognize contractors
performing well, and to correct problems before they jeopardize contract
completion. Interim evaluations also provide current performance information on
comparable contracts to source selection teams. Completing these assessments
improves the quantity and quality of performance information available to aid in
source selection, not just by EPA but other Federal agencies as well. Contractors
can gain or lose contracts based on past performance information, which in turn
can mean millions of dollars in revenue. Therefore, not consistently documenting
evaluations in a timely manner is a disservice to EPA and other Federal agencies,
as well as EPA’s best contractors.

By not adequately documenting evaluations, the Agency is not fully meeting its
requirement of providing past performance evaluations to the contracting
community. FAR 9.104–1(c) requires a prospective contractor to have a
satisfactory performance record to do business with the Government. Past
performance can be used to help the Government decide whether a contractor is
capable of performing and provides a good indicator of future performance.




                                 19
         Lack of formal training may have resulted in inconsistent and inaccurate
         evaluation information. EPA has designated one individual to provide training on
         the NIH CPS. Most staff nationwide have not been trained due to lack of travel
         funds.

         OAM has developed a “tickler” system to remind Contracting Officers to
         complete evaluations. However, OAM needs to develop controls to ensure that
         Contracting Officers document evaluations timely and consistently in the NIH
         CPS.

Recommendations

         We recommend that the Acting Assistant Administrator for OSWER, in
         coordination with the Acting Assistant Administrator for OARM and the regions:

         4-1	   Provide NIH CPS training to applicable regional and headquarters staff.

         4-2	   Develop a method for holding Contracting Officers accountable for
                documenting evaluations of contractor performance in the NIH CPS timely
                and consistently.

Agency Comments and OIG Evaluation

         EPA agreed with the recommendations and noted that more training and
         accountability are required in the area of contractor performance evaluations.
         However, EPA did not give any detailed information on how staff will be trained ,
         or how it plans to hold Contracting Officers accountable if evaluations are not
         documented. EPA will need to decide on a cost effective method of providing
         training so that data can be input timely and consistently.




                                         20
                            Chapter 5
Utilization of Remedial Action Contract Management
       Information System Could be Improved
      Contract managers have, or can obtain, the information needed to evaluate results
      and make decisions, but the information in the national automated database is not
      always readily available. The Remedial Action Contract Management
      Information System (RACMIS) is underutilized by regional staff and the system
      does not collect national data as originally intended. Most regional staff do not
      use RACMIS due to its limited reporting capability, and some regions have
      decided not to require contractor information through RACMIS due to its costs.
      As a result, EPA is expending approximately $1.5 million a year on a system that
      is not being fully utilized and may not be used for its intended purposes.

      The Administrator’s Task Force Report of October 1991 required establishing a
      management information system to monitor resources and establish regional
      capacity for providing Independent Government Cost Estimates. RACMIS was
      created to meet this requirement, and the system was deployed in 1996 and 1997.

      RACMIS is currently utilized primarily by Headquarters to report on contract
      obligations, expenditure limits, expenditures, type of work performed, regional
      crossover work, and creation of Independent Government Cost Estimates.
      However, most regional staff use locally based spreadsheets and do not use
      RACMIS due to the limited retrieval and reporting capability available in the
      regions. Currently there is a lag time between the regions’ requests for data and
      the generation of reports to meet those requests. Some regions believe the
      information can in fact be captured at a lower cost.

      Because of this, Regions 7 and 10 chose, and were allowed, to opt-out of reporting
      in RACMIS for the new RACs. According to Region 10 staff, "this was done
      because the program in Region 10 did not want to bear the cost of RACMIS when
      essentially the same information could be obtained at a lower cost."

      To address the problem of underutilization, the Agency plans to implement
      Business Objects, a report-writing tool that will allow the regions to readily access
      RACMIS to create reports. Headquarters provided Business Objects training to
      some regional staff in April and May 2004. Indications from staff attending the
      training is that RACMIS will now be utilized more in the regions.

      The OSRTI staff advised that Region 7 now wants to utilize RACMIS on its
      contracts and OAM staff stated that all the other contractors for the next round of
      RACs will be required to utilize RACMIS. Region 10, however, has not changed
      its plans. Without data from all the contractors, complete national data on RACs

                                       21
         will not be available in RACMIS, compromising the ability to report timely
         national data.

         OSRTI staff also advised that they plan on performing an analysis before the end
         of calender year 2004 to assess whether RACMIS is truly needed, whether the
         cost of RACMIS is reasonable for the information being provided, or whether
         contractors’ financial reporting requirements can be met at a lower cost. They
         advise that, currently, the cost of reporting through RACMIS is $1.5 million a
         year, less than 1 percent of total RAC costs.

         If the Agency decides that RACMIS is the system it wants to use, then reporting
         through RACMIS should be mandatory for all regions.

Recommendations

         We recommend that the Acting Assistant Administrator for OSWER, in
         coordination with the Acting Assistant Administrator for OARM and the regions:

         5-1    Complete the proposed cost benefit analysis to determine whether
                RACMIS should be retained or other more cost effective methods should
                be used to collect RAC financial data.

         5-2    If EPA decides to continue using RACMIS, develop and implement a
                strategy to improve regional utilization of RACMIS (or its replacement
                system if so decided), and require that financial information be collected
                for all RACs.

Agency Comments and OIG Evaluation

         EPA stated that it is conducting a cost benefit analysis of RACMIS and plans to
         discuss the results of its analysis at the Senior Superfund Regional Managers
         Acquisition Council meeting in December 2004. EPA’s response addresses our
         first recommendation; however, EPA still needs to address how it will assure that
         the system (RACMIS or its replacement) will be utilized for all RACs.




                                         22
                                                                                       Appendix A

     Schedule of Response Action Contracts Reviewed

                                              Maximum                         Period of
                                Contract      Contract       Date of      Performance Base       Re­
No.       Contractor            Number         Value         Award        Plus Option Years      gion

1     Tetra Tech NU            68-W6-0045    $423,248,994   08/29/1996   08/29/1996-08/28/2006    1

2     Metcalf & Eddy           68-W6-0042    $459,536,934   09/30/1996   09/30/1996-09/29/2006    1

3     Foster Wheeler           68-W-98-214   $243,770,460   07/06/1998   070/6/1998-07/05/2008    2
      Environmental Corp.

 4    CDM Federal              68-W-98-210   $217,731,330   07/06/1998   07/06/1998-07/05/2008    2
      Programs Corp.

 5    Tetra Tech NUS           68-S6-3003    $168,720,501   09/30/1996   09/30/1996-09/29/2006    3

 6    Tetra Tech/Black &       68-S7-3002    $168,763,187   06/12/1997   06/12/1997-06/11/2007    3
      Veatch

 7    CDM Federal              68-S7-3003    $169,329,900   09/30/1997   09/30/1997-09/29/2007    3
      Programs Corp.

 8    Black & Veatch           68-W-99-043   $346,336,991   06/17/1999   06/17/1999-06/16/2009    4
      Special Projects Corp.

 9    CH2M Hill                68-W6-0025    $288,327,444   09/30/1996   09/30/1996-09/26/2006    5

10    Weston Solutions, Inc.   68-W7-0026    $290,046,890   05/01/1997   05/01/1997-04/30/2007    5

11    CH2M Hill                68-W6-0036    $290,728,258   07/08/1996   07/08/1996-07/07/2006    6

12    Tetra Tech               68-W6-0037    $253,261,985   09/13/1996   09/13/1996-09/12/2006    6
      Environmental Mgmt.

13    Black & Veatch           68-W5-0004    $302,858,596   06/15/1995   06/15/1995-06/14/2005    7

14    CDM Federal              68-W5-0022    $237,629,770   020/5/1997   09/29/1995-09/28/2005    8
      Programs

15    CH2M Hill                68-W-98-225   $303,984,009   09/29/1998   10/01/1998-09/30/2008    9

16    URS Greiner              68-W-98-228   $130,466,269   09/30/1998   10/01/1998-09/30/2008    10

           Maximum RACs Value: $4,294,741,518




                                                  23
                                                                                    Appendix B




        Thank you for the opportunity to review the draft audit report: Response Action Contracts
Structure and Administration Needs Improvement. The comments below reflect consolidation of
the Office of Acquisition Management’s (OAM) and the Office of Solid Waste and Emergency
Response’s (OSWER) review of the report. First, we address each of the recommendations and
provide information about planned or initiated actions related to those recommendations. Second,
we provide a few other comments to ensure that the final audit report contains accurate and
current information to substantiate the proposed recommendations.

CHAPTER 2 – RESPONSE ACTION CONTRACTS NEED TO BE RESTRUCTURED

Recommendation 2-1 “Develop a plan for RAC II which:
     a) increases the use of ID/IQ, task order, site specific contracts, and
     b) allows for separate contracting for design, construction, and other remedial services.”

Recommendation 2-2 “Conduct a lessons learned analysis of the new ID/IQ contracts as soon
     as sufficient data is available.”

EPA RESPONSE:

       EPA’s current strategy (Contracts 2000 - Design/Construction Contracts Decision
memorandum dated/ September 15, 2000) already allows for separate contracts for design,
construction, and other remedial services, and Regions 7 and 10 are piloting this concept. We also

                                                24
have developed plans to increase the use of ID/IQ contracts. In addition to the Region 10 contract
discussed in the audit report, Regions 6 and 7 will award ID/IQ contracts and other regions are
considering using this contract type. The audit report recommendation should indicate this
progress. OARM and OSRTI will be conducting a review of the Region 10 Architect and
Engineering Services (AES) contracts this fall and will share lessons learned and best practices
with the other regions.

Recommendation 2-3 “Stop funding the Response Action Contracts (RACs) in excess of
identified needs.”

EPA RESPONSE:

       As noted in our comment related to Page 9 below, we do not agree that EPA is funding
RACs in excess of identified needs. We will examine, however, the extent to which Regions are
forward funding project needs.

Recommendation 2-4 “Review and Revise the recertification policy so as to remove it as an
     impediment to utilization of better contract types. “

EPA RESPONSE:

        We agree that there needs to be a revision or clarification of this policy, especially as it
applies to RACs that use task orders or other contract types, and we will develop such guidelines
for the regions.

OTHER EPA COMMENTS ON CHAPTER 2:

Page 8, fifth full paragraph: “While the menu approach seems to balance national consistency
with regional flexibility, there is limited assurance that it will lead in all cases to increased
competition, increased small, minority and women owned business participation, or use of
performance based, multiple award, and fixed price contracts. There is no guarantee that the
regions will select other types of contracts and they may stay with the existing contract type,
CPAF.”

        While we agree that the menu approach does not assure these goals, I want to highlight the
actions we are taking to achieve them. Regional implementation plans approved September 28,
2004, show that all regions will be awarding at least two contracts and have committed to increase
participation of disadvantaged and small business. At least five regions (Regions 5, 6, 7, 8, and
10) have committed to awarding 50 percent of their requirement to small business. In addition,
the full-service RACs will require fixed priced subcontracts for construction to be performance
based. While the regions have not been directed to award specific contract types, three regions
will award Indefinite Delivery/Indefinite Quantity (ID/IQ) contracts.

Page 9, third full paragraph, fourth sentence: “The remaining $8.6 million appears to be
funding in excess of the regions’ identified needs and “at risk” in light of the court decision.”

                                                 25
        While we agree that the Agency needs to actively monitor RAC funding activity, the audit
report does not clearly establish that $8.6 million is “at risk”. It is not an accurate assumption to
use composite amounts of all RACs for this purpose. In order to assess if funds are at risk in light
of the court decision, the Level of Effort (LOE) ordered and obligated has to be analyzed on a
contract by contract basis. Nonetheless, we agree that LOE contracts could pose a vulnerability if
not closely monitored and appropriately modified with regard to funds obligated and available
level of effort.

CHAPTER 3 - PROCUREMENT DECISIONS NOT ADEQUATELY DOCUMENTED

Recommendation 3-1 “Issue clarifying guidance on the Superfund “Policy for assigning
     remedial work to the USACE: requiring that (a) past performance of USACE be
     considered in source selection, (b) the rationale for all source selection decisions be
     documented.”

EPA RESPONSE:

        EPA recognizes the need to evaluate how each Region is documenting its rationale of
which procurement option to utilize for Superfund construction services. It is important to clarify
that the factors to be considered, as outlined in current policy, are guidelines rather than
requirements. Thus, Regions do not have to address each factor in their documentation, only those
that apply. EPA will be reviewing how each Region documents their decision as part of the
Superfund Contracts Regional Review program. We agree with the recommendation that more
documentation is required.

        As part of source selection considerations, EPA does consider who is the best source to
procure and manage construction services. Under the source selection factor, experienced staff
and managers evaluate which organization is most appropriate to place and manage a particular
requirement. Experience, capabilities, performance, staffing knowledge and availability, and
capabilities, all play into evaluations made under this factor. As part of our review of source
selection documentation during Regional Reviews, we will look into how the performance of the
USACE is explained under this factor. We will also look into ways of sharing performance issues
on a national basis at national meetings, such as the Senior Superfund Regional Managers
Acquisition Council (SRMAC).

Recommendation 3-2 Develop and implement a plan to share EPA evaluations of the USACE
     nationwide.

EPA RESPONSE:

       While we do not agree that we need a formal process to evaluate the USACE’s past
performance, we do agree that sharing information about contracts procured by USACE and the
process used will be a valuable management tool. The USACE partners with EPA in providing
construction contracting, placement and oversight. Performance of contractors procured by
USACE are evaluated using standard Federal contract management procedures. Poor

                                                 26
performance by a contractor is not necessarily indicative of poor performance of USACE
personnel managing the contract. We believe that what is beneficial to the contracting process is
close coordination between EPA and the USACE project manager overseeing the project.

        To this end, to enhance coordination we are testing a feedback report intended to be
completed by both the EPA and USACE project managers that will provide progress, quality and
status of ongoing work. This feedback, in addition to routine project communications, will
highlight for managers potential problems that need to be resolved. We are also developing a
completion report to provide information to EPA and USACE personnel on the overall
satisfaction of the USACE’s management of the project and the USACE contractor’s
performance. This information will be available to all Regions.

OTHER EPA COMMENT ON CHAPTER 3:

Page 14, third full paragraph: “EPA information pertaining to USACE past performance is
anecdotal” is contradicted by the next sentence which states that “Regional staff oversees USACE
activities through progress reports, meetings, and e-mails.” Progress reports and meetings are
not anecdotal, thus this term should be removed from the first sentence.

CHAPTER 4 - PAST PERFORMANCE EVALUATIONS NOT DOCUMENTED TIMELY
AND CONSISTENTLY

Recommendation 4-1 “Develop a method for holding Contracting Officers accountable for
     conducting timely and consistent evaluations of contractor performance in the NIH CPS.”

Recommendation 4-2 “Provide NIH CPS training to applicable regional and headquarters
     staff.”

EPA RESPONSE

       We agree with recommendations 4.1 and 4.2 that more accountability and training are
required in the area of contractor performance evaluations. In addition to the corrective actions
mentioned in the report, the following additional actions are planned or initiated:

       a. OAM will conduct reviews every six months to ensure that the performance evaluations
       of the RAC contracts are completed on time.

       b. OAM designates an annual National Institute of Health (NIH) Stand-down Day.
       Contracting Officers are directed to prioritize the completion of the contractor
       performance evaluations on this day.

       c. Training on the NIH system has been made available to the regions.




                                                27
CHAPTER 5 - UTILIZATION OF REMEDIAL ACTION CONTRACT MANAGEMENT
INFORMATION SYSTEM COULD BE IMPROVED

Recommendation 5-1 “Complete the proposed cost benefit analysis to determine whether
     RACMIS should be retained or other more cost effective methods should be used to collect
     RAC financial data.”

EPA RESPONSE:

        We are conducting the cost benefit analysis called for in this recommendation. We plan
to present the results to the SRMAC meeting in December 2004. We will share the presentation
with you.

Recommendation 5.2 If EPA decides to continue using RACMIS, develop and implement a
     strategy to improve regional utilization of RACMIS (or its replacement system if so
     decided), and require the financial information be collected for all RACs.

EPA RESPONSE:

        We agree that if we continue to use RACMIS we will require that the information be
collected for all RACs.

OTHER EPA COMMENT ON CHAPTER 5:

Page 21, 6th paragraph, first sentence: “OSRTI staff advised that Region 10 now wants to utilize
RACMIS on its contracts” is incorrect. Whereas there may have been discussion among staff
about RACMIS, OSWER has not received official notification by Region 10 that they want to
utilize RACMIS. Second sentence: “Region 7, however, has not changed its plans.”
Region 7 has indicated to OAM that they will utilize RACMIS in the future.

        Thank you for the opportunity to review the draft report. If you have any questions
regarding our comments please contact Johnsie Webster at 202-566-1912 or Barbara McDonough
at (703) 603-9042.

cc:	   Judy Davis
       Mike Cook
       Johnsie Webster
       Susan Janowiak
       Paige Peck
       Yvette Garner




                                               28
                                                                               Appendix C

                                   Distribution

EPA Headquarters

  Acting Assistant Administrator, Office of Solid Waste and Emergency Response (5101T)

  Director, Office of Superfund Remediation and Technology Innovation (5201G)

  Acting Assistant Administrator, Office of Administration and Resources Management (3101T)

  Director, Office of Acquisition Management (3801R)

  Agency Followup Official (the CFO) (2710A)

  Agency Followup Coordinator (2724A)

  Audit Followup Coordinator, Office of Administrator (1104)

  Audit Followup Coordinator, Office of Solid Waste and Emergency Response (5103)

  Audit Followup Coordinator, Office Administration and Resources Management (3102A)

  Associate Administrator for Congressional and Intergovernmental Relations (1301A)

  Associate Administrator for Public Affairs (1101A)

  Inspector General (2410)



EPA Regions

  Regional Administrator (1-10)

  Regional Audit Followup Coordinators (1-10)





                                            29
